                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A08040022                                                         Page 1of 2


          A complainant alleged a proposal submitted20 NSF (proposal A') contained
          plagiarism in a proposal (proposal B2) previously submitted to NSF. Specifically,
          she said intellectual ideas previously expressed in proposal B were present without
          citation in proposal A. We asked her to specify what she believed the unique
          intellectual property from proposal B that appeared in proposal A, which she
          provided.    She reiterated her opinion that proposal B contained a unique
          combination of ideas and approach to the research problem both proposals had in
          common.

          We ran proposals A and B through our plagiarism software for a direct comparison
          of text. The result showed there was not a single sentence of overlap between the
          two proposals. Further, there were no common references between the two
          proposals suggesting the two groups approached the research from different
          backgrounds.

          As the complainant's allegation contained detailed scientific and technical points
          that relied on knowledge of current practices of the field, we consulted a n expert
          (expert A3) for a confidential evaluation of the allegation. In the course of his
          evaluation, expert A suggested additional consultation with expert B4 about a
                                                                                                C

          particular approach a s expert B knew more about the current state-of-the-art. We
          agreed.

          Both experts noted there was no overlap of text, figures, or references in the two
          proposals. Both experts acknowledged the similarity of the approach in a broad
          way, but noted the details of the two approaches were quite different. One of the
          points of contention was the use of similar software. However, expert A stated
          proposal A proposed using commercially available software for the purpose of
          calibrating experimental equipment a t his university. Proposal B was going to use
          custom software altered to incorporate the results of past and future experiments
          and make predictions using the modified software. Expert A said proposal A was
          more experimental and proposal B was more theoretical. Both experts thought
          proposal A was what one would expect given the investment and commitment to
          studying problems of this type a t the university that submitted proposal A. Both

              1 (redacted).
              2 (redacted).
              3 (redacted).
              4 (redacted).




. -   -   -
                                     NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                       OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A08-22
                                                                11       Page 2 of 2


    experts concluded there was no evidence of any form of plagiarism regarding these
    two proposals.

    We reviewed the experts' opinions, the proposals, and the results of our software
    again. We concur with the experts there is no evidence to support the allegation of
    plagiarism. Accordingly, this case is closed.
